CERTIFICATE OF COMPLIANCE
I, Barbara Stone hereby certify that according to the word-count tool in Microsoft
Word, the Writ of Mandamus and Prohibition consists of 8,995 words, including
footnotes and excluding the sections enumerated by Rule 33. 1(d). The Brief
therefore complies with Rule 33.1(g).
-—

Barbara Stone
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel: 305-358-9971
Barbara.stone.usa@gmail.com

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing U.S. Supreme Court Brief and Appendix
has been filed in Pacer for filing with the 11th Circuit Court of Appeals and Roy R.
Lustig, mailed to the Clerk of Southern District Court of Florida at 400 N. Miami
Ave, Miami, FL 33128 for filing with Joan Lenard and Jonathan Goodman, emailed
to FLSB-EMERGENCY-FILINGS@flsb.uscourts.gov as required by the Southern
District Court of Florida Bankruptcy court for filing with Laurel Isicoff and filed in
the Florida e-portal for filing with Carol Lisa Phillips and Milton Hirsh on this 28th
day of August, 2020.

Barbara Stone
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel: 305-358-9971
Barbara.stone.usa@gmail.com

28

Additional material
from this filing is
available in the
Clerk's Office.

